APPENDIX TAB A
Decision of State Court of Appeals

-12-

Court of Appeals
Fifth District of Texas at Dallas
JUDGMENT
Franklin Cox,
Appellant

On Appeal from the 134th
Judicial District Court,
Dallas County, Texas
Trial Court Cause No.
No.05-17-01331-CV
DC-17-01261.
V. Opinion delivered by
Justice Osborne;Justices
Schenck and
Texas Workforce Commission, Reichek,
Lincoln Technical Institute,
participating
Inc.,and UCAC,Inc.,
Appellees
In accordance with this Court’s opinion of this
date, the judgment of the trial court is
AFFIRMED.
It is ORDERED that appellees Texas Workforce
Commission, Lincoln Technical Institute, Inc.
and UCAC, Inc. recover their costs of this
appeal from appellant Franklin Cox.
Judgment entered this 10th day of May, 2019.

-13-

APPENDIX TAB B
Decision of State Trial Court

-14-

CAUSE NO. DC-17-01261
Franklin L. Cox
Plaintiff,
v.
Texas Workforce
Commission and
Lincoln Technical,
Defendants

§
§

In The 134th Judicial

§
§
§
§
§

District Court of

§

Dallas County, Texas

ORDER GRANTING SUMMARY JUDGMENT
Defendants Motion for Summary Judgment of
Lincoln Technical and Texas Workforce Commi­
ssion came to be considered. The Court, after
considering the basis of the Motion, is of the
opinion that the Motion for Summary Judgm­
ent of Defendants Lincoln Technical and Texas
Workforce Commission should be GRANTED.
It is therefore ORDERED that the Motion for
Summary Judgment of Defendants Lincoln Tec­
hnical and Texas Workforce Commission is
GRANTED in its entirety. All costs of Court
shall be borne by party incurring same. This or­
der is final and appealable and disposes of all
parties and claims.
SIGNED THIS 3 DAY OF November. 2017.
“ Dale Tillerv”
Judge Presiding
-15-

Page 197

APPENDIX TAB D
Order of State Supreme Court
Denying Rehearing Reprinted

-18-

The Supreme Court of Texas
No. 19-0443
FRANKLIN COX
v.
TEXAS WORKFORCE

§
§
§
§

§

Dallas County,
5th District

§

COMMISSION AND
LINCOLN TECHNICAL
ANDUCACINC.
December 6,2019
Petitioner's motion for rehearing of petition for
review, filed herein in the above numbered and
styled case, having been duly considered, is or­
dered, and hereby is, denied.
I,BLAKE A HAWTHORNE, Clerk of the Supr­
eme Court of Texas, do hereby certify that the
above is a true and correct copy of the orders of
the Supreme Court of Texas in the raise number
and styled as above, as the same appear of reco­
ord in the minutes of said Court under the date
shown.
It is further ordered that petitioner, FRANKLIN
COX, pay all costs incurred on this petition.
WITNESS my hand and seal of the Supreme
Court of Texas, at the City of Austin, this the 6th
day of December, 2019.
“ Blake A Hawthorne”
Blake A. Hawthorne, Clerk
By Monica Zamarripa, Deputy Clerk
-19-

/

\

/

APPENDIX TAB E
(CR 138) booth 73 repairs are complete

-20-

v

Tig systems and booth not finish
Franklin Cox
Thu 1/21/2016 4;30 pm.
Sent Items: Inbox
To: Ron Harris; Donald Cole; Franklin Cox;
Rick Calverley;
Tig systems and booth did not finish. Booth 69
has bad regulator. Booth 73 repairs are compl­
ete. The entire system of 75 booth will have to
be look at. I did not brake booth 73 line.

-21-

i

APPENDIX TAB F
(CR 136) Update of Progress
Feb. 11 & Feb. 23, 2016
Reprinted

-22-

Mail Calender People Task

Franklin Cox

Update
Rick Calverley
Tue. 2/23/2016 1:55 pm.
Mr. Cox, see email below. To date, you have not
answered that email or given any update, can
you explain why?
Rick Calverlev ;
CNC Education Supervisor
2501 E. Arkansas
Grand Prairie, Texas 7552
(972) 660-5701 ext. 41112
Franklin Cox
Thu. 2/11/2016 12: 31pm.
Inbox Sent Item
Cc: Franklin Cox
On the tig booth found bad joint with compress­
or oil all over it allowing it to enter into line
thru ring gap opening, clean joint no black stuff
in weld as of today. Row B at the bottom 8V 350
units has pass first test. Row B center section 4
V 350 has pass second test ready for load test.
Row C at bottom 8 units need to be sent out (1)
Miller XMT 350 (2) 5 Lincoln V 350 (3) Cutmaster 102 (4) Track earner. By the sink 12 wire fe­
eder tag for scrap. The tig joint I shared with
you Monday 2-8-16.
“Hand writing on email to Mr. Calverley
2/23/16 request and return to office under door.”
Row B 4- 350 ready for load test
7-350 ready for load test
Row B center 5- 350 ready for load test.
Row C bottom add 3 V 350 to original number.
All wire feeder check and tag if parts are
missing.
-23-

Page 136

APPENDIX TAB G
(CR 162) Argon repair
1-21-2016 11: 48 am.
Reprinted

-24-

**5

ARGON REPAIR 1-21-16 11:48 AM
1.Leak test all fitting from shut off valve to flow
meter.
2. Teflon tape all fitting from shut valve to flow
meter.
3. Plug all gas lines. There are lines coming into
the booth with no hose that are not plugged, See
the picture. This is a safely issue, if a student
Intentionally or accidentally open that valve we
will have gas into the lab.
4. After the booth are completed, leak test the
Argon lines from booth all the way back to the
mixer.
5. At 1 pm. Today shut down the argon system
and repair the line you broke in booth 73.1 will
Kept student out until 2pm.
A
R
G
O
N

h

£o2AI?
(

|4>4> ItX?
<*£>

Q*

Shut

go %0
It

isH'Off

no
(mO

Sb 5a

\ WftTTS eft

Valve

Ho HO Teflon

Tape s*
9*
harris* here

Hi

O
Flow
^Meter

v—Bushing
1/2
Elbi

-25-

APPENDIX TAB H
Photo of V 350 without attachment

-26-

-

ii

w

HoS

cr

*A

>1
INVERTEC V 350 -PRO without attachment (V-350)

-27-

APPENDIX TAB I
(CR 113) Right to sue letter
(Reprinted partly)

-28-

(CR 113) Right to sue letter
Texas Workforce Commission
Austin, Texas
Finding and Decision of Commission
Upon Review of Claim For Benefits
Jan. 12. 2017
Date Mailed
C
1
a Franklin L. Cox

Case Number
208149-3

i

m
a
n
t
E
m
p
1

Social Security No.

xxxxx

Lincoln Technical
UCACINC
1201 Richardson Dr. STE 110
Richardson, TX 75080-4610

o

Prior Decision Date
December 2, 2016

y
e

r
Appeal Filed by: Claimt
The decision of the Appeal Tribunal is in all repects affirmed. The last day a timely appeal
Commissioner
may be filed Jan 26. 2017
1 dissent - Julian Alvarez - Representing Labor
Andres Alcantar - Representing the Public.
Ruth R. Hughs- Representing Employer.
-29-

Page 113

APPENDIX TAB J
(CR 195) Declaration of
UCAC INC / Motion to Dismiss
(Reprinted partly)

-30-

.Declaration of UCAC. INC, and Motion
to Dismiss UCAC. INC
February 20. 2017
To: Clerk, 134 th District Court DC-17-01261
600 Commerce St., Suite 101
Dallas, Texas 75202
In the matter of:
v.
Franklin L. Cox,
Lincoln Technical
Plaintiff
Defendant
P.O.Box 398783
2915 Alouette Dr.
Dallas, TX 75339
Grand Prairie, TX
75052
with document mailing address:
UCAC, INC
1201 Richardson Dr.
Richardson, TX 75080-4610
1.1, the undersigned Bertram f. Collins, am the
CEO of the Florida corporation, UCAC, INC .,
with headquarters in West Palm Beach, FI.,and
a regional office in Richardson, TX, to provide
an auditing service to verify the accuracy of the
annual experience-rate tax rate assigned to our
employer clients by the Texas Workforce Comm­
ission and similar agencies in other states. This
is the situation with regard to our client Lincoln
Technical who has asked the State agency to fo­
rward their mail through our mailing address.
2.1n short, we may forward mail as requested by
our client, but we have no jurisdiction over it.
3.1n such cases where a claimant, such as the
Plaintiff Franklin L. Cox, not realizing our solit­
ary role as unemployment tax accountants, has
named us, contrary to law and fact,I” defendant”
in an appeal for his benefits, UCAC has been di­
smissed as a defendant.
4.1 pray that the Court will grant this Motion
and dismiss UCAC Inc. as a Defendant in this
case DC-17-01261.
Respectively submitted, Bertram F. Collins.
Page 195
-31-

i

APPENDIX TAB K
(CR 194) Memorandum of
UCAC INC
Reprinted

-32-

MEMORANDUM
October 27,2017
RE: Franklin Cox vs Texas
Workforce Commission
Dear Judge Tillery;
I am writing to you as suggested by Court Cle­
rk Leslie to ask your Honor to dismiss my
small unemployment comnensation tax accou­
nting company. UCAC, as a “Defendant” so
named by the Plaintiff Cox in his above cause
to change the TWC’s decision that denied his
entitlement to unemployment compensation
benefits.
5. In fact, no where in the Plaintiff motion in
support for his suit does there appear a single
word of reference to cause, involvement or evi­
dence related to UCAC. That because there is
no basis or cause for justifying the naming of
UCAC a “Defendant.” We are tax accountants
only prohibited by law from claims adjudicat­
ion involvement. Thus, we have no evidence in
or out of the courtroom that would help or hin­
der Plaintiff Cox’s suit against the TWC.
The enclosed copy of our motion filed back in
February 2017 is enclosed for a convenient ref­
erence. Having reached my ninety-first year
this past August and facing health problems, I
will be grateful for whatever you may find just
and possible to do to help me, realizing that di­
smissing UCAC as a “Defendant” will not effe­
ct Plaintiff Cox’s suit to reverse the TWC’s dec­
ision so that he can get his unemployment ben­
efits
Thanking you for your consideration, I remain
Respectfully,
Bertram F. Collins
-33-

Page 194

APPENDIX TAB L
(CR 129) Letter of Concern
received after 6/28/16
Reprinted partly

-34-

Date:
To.
From:
CC:
Re:

Letter of Concern
February 2,2016
Franklin Cox
Rick Calverley, Education Supervisor
Cory Hughes, Campus President
Ron Harris, Director of Education
Personnel File
Attendance advisories

Reason for Letter of Concern:
Onl2/21/15, after various issue and students
complaints concerning the Tig welding machine.
I gave you a directive to complete 3 specific
task before COB on 12/22. These task included
leak testing all booths, teflon taping all fittings
in Tig booths, and plugging all gas lines that
had an open valve. As of 2/1/16 these tasks
remain only partially complete. The leaking gas
can lead to a large monetary loss, but most imp­
ortantly is a safety concern for our employees
and students.
After addressing this with you on 2 separate oc­
casions, I still have not received an adequate
answer as to why these are not complete and
what is the expected completion date. This is in
violation of Employee handbook, page 35, Sect­
ion 8, “Refusing to follow a reasonable directive
of any member of the Company supervisory or
administrative staff.’
The tasks assigned must be completed in the
time given, or a reasonable expectation of com­
pletion date must be provided. If you have other
daily tasks which interfere with these directives
, please seek guidance from the shift Education
Supervisor.
-35Page 129

(

APPENDIX TAB M
(CR 194) Mr. Calverley email
I can not give you plugs 1/25/16
Reprinted

-36-

Mail Calendar People Task Franklin Cox
Tig system and booths
Franklin Cox
Wed. 1/27/2016 11:28 am.
Still having issues with machine some are still
leaking. Need to get bundles ready for student
and also booth appointed.
Rick Calverley
Mon. 1/25/2016 3:04 pm,
Inbox
I can not give you the plugs you need until tell
me what size and how many. I need to know
when this will be complete. As I said before, this
has more priority than anything.
Rick Calverley
C NC Education Supervisor
2501 E. Arkansas
Grand Prairie, Texas 75052
(972) 660-5701 ext. 41112
LINCOLN NLMS
College of Techology
(CR 134)

-37-

•'V. •

s'

APPENDIX TAB N
(CR 135) Cox request more thread
Seal tape no response 1/29/16
Reprinted

-38-

Mail Calendar People Task Franklin Cox
Ending all Booth Walk thru.
Franklin Cox
Fri. 1/29/2016 4;28 pm.
To; Rick Calverley,
Cc: Franklin Cox
Tig booth still not complete, we are using
used parts they have to be disconnected- cleaninspection- tape -reassemble and hope they don’t
leak. If they do leak start over again.
Began putting tag on unit that pass or failed
test. Need more thread seal tape.

-39-

Page 135

